Supreme Court, U.S.
FILED

WAIVER

OCT 15 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5790
Federal Reserve Bank of New York

Gerard Nguedi

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

B Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
M I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by Aber_
Signature
Date-

October 15, 2020
Michael M. Brennan
S Mr. 0 Ms. 0 Mrs. 0
Federal Reserve Bank of New York

(Type or print) Name
F

Address

Miss

33 Liberty Street

City & state New York, NY
(212) 720-8235
Phone

zip 10045
Email

michaei.brennan@ny.frb.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO S. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Gerard Nguedi

RECEWED
OCT 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

